AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 Status of the Mixed Oxide Fuel
 Fabrication Facility




 DOE/IG-0713                              December 2005
STATUS OF THE MIXED OXIDE FUEL FABRICATION FACILITY



TABLE OF
CONTENTS


  MOX Facility Design Costs

  Details of Finding                                  1

  Recommendations                                     5

  Comments                                            6


  Appendices

  Objective, Scope, and Methodology                   9

  Prior Audit Reports                                 11

  Management Comments                                 12
MOX Facility Design Costs


Design and            The audit disclosed that the cost of the Mixed Oxide Fuel
Construction Budget   Facility (MOX) will significantly exceed the amounts reported to
                      Congress. As of July 2005, the National Nuclear Security
                      Administration's (NNSA's) unvalidated estimate for the design and
                      construction of the MOX Facility was about $3.5 billion, which is
                      $2.5 billion more than reported to Congress in 2002. NNSA's
                      previous estimate of $1 billion for the facility's design and
                      construction was reported in the February 2002 plutonium
                      disposition plan presented to Congress. NNSA reported that it had
                      a high degree of confidence in the estimate because the MOX
                      technology was well-established and based on proven processes
                      used in Europe since the 1960s, and it expected modifications to
                      the technology to be relatively minor. NNSA also stated that the
                      facility's design was about 60 percent complete at the time of the
                      2002 report.

                      However, by July 2005, NNSA had already spent $453 million -
                      nearly half of the $1 billion design and construction budget - on
                      just design activities, and had only completed 70 percent of the
                      design work. NNSA estimated that it would spend a total of
                      $744 million just for the facility's base and equipment design
                      activities.

                      NNSA attributed part of the design cost increases to a change in
                      work scope including design work intended to reduce construction
                      costs in the long-run. Specifically, NNSA had incurred costs of
                      $144 million for process equipment and software designs, and
                      estimated that it would spend a total of $324 million for these
                      design activities. These design activities were originally intended
                      to be performed in the construction phase, but NNSA added it to
                      the base design contract in 2003.

                      NNSA stated that spending additional funds up front to complete
                      100 percent of the detailed design work prior to the construction
                      phase should reduce construction costs, minimize the number of
                      costly changes later on in the project, and increase the confidence
                      in the cost and schedule estimates. However, we noted that the
                      cost estimate for construction has increased, rather than decreased.
                      NNSA estimated in July 2005 that construction will cost
                      approximately $2.8 billion in addition to the estimated $744
                      million to be spent on design activities.




Page 1                                                               Details of Finding
Project Management   Although schedule delays associated with the Russian liability
and Oversight        issue and added scope have resulted in cost impacts, we
                     determined that NNSA's project management weaknesses and
                     limited oversight significantly contributed to the project's cost
                     increases.

                                      Project Management Weaknesses

                     Key project management practices necessary to control costs and
                     quickly identify and report performance concerns were not
                     employed by NNSA. NNSA's project management practices did
                     not mitigate the risk of cost growth associated with the cost-plus-
                     fixed fee contract used for the MOX Facility project. Specifically,
                     NNSA did not incentivize the contractor to control costs, nor did it
                     establish an effective performance baseline. Further, NNSA did
                     not ensure that monthly reports and cost ceilings were meaningful
                     and relevant.

                                           Cost Control Incentives

                     The Department awarded a cost-plus-fixed-fee contract despite the
                     contract's inherent high risk of cost growth. Cost growth is not
                     unusual in these contracts because the contractor is reimbursed for
                     the costs it incurs under the contract with minimal responsibility
                     for the cost of work performed. In 1999, an independent team
                     reviewing the MOX Facility contract warned of the potential for
                     escalating costs because the contractor had no incentives to
                     minimize costs nor penalties for overruns or poor performance.
                     The team reported that the Department had very little, if any,
                     leverage in negotiations with the contractor in setting the
                     performance baseline, nor were there any contractual means short
                     of management persuasion to ensure cost control. Through June
                     2005, the contract was modified for more than $100 million due to
                     cost overruns and variances.

                                            Performance Baseline

                     Contributing to the contract's susceptibility for cost growth was
                     NNSA's failure to establish a performance baseline, or Critical
                     Decision-2. Critical Decision-2 is a project management step
                     which establishes the scope, cost, and schedule baseline, and
                     provides a basis to measure and track performance. When a
                     project reaches Critical Decision-2, the Department's Office of
                     Engineering and Construction Management monitors and reviews
                     the project, and formally tracks performance.




Page 2                                                               Details of Finding
         If a project experiences significant variances in its cost and
         schedule, it is placed on the "watch list" and is closely monitored
         until corrective actions have taken place.

         In July 2004, an independent research team determined that the
         MOX project should have been baselined "some years ago" so that
         it would have the visibility and attention of all parties. The team
         recommended that projects such as MOX have a baseline
         established at the 30 to 40 percent design point. The team further
         recommended that if all requirements of Critical Decision-2 could
         not be met at that point, a shortened list of requirements should be
         developed so that a formal baseline for some portion of the work
         could be developed and approved. In contrast, NNSA had delayed
         submission of Critical Decision-2 for several years even though
         NNSA determined that the project was well enough established to
         begin construction in 2003. As the start of construction was
         deferred, so was the formal baselining process. Consequently, the
         design contract has continued for 6 years without the benefit of a
         performance baseline. As of July 2005, NNSA still did not have a
         baseline for the project.

                            Progress and Cost Reporting

         In lieu of a full performance baseline, NNSA relied on information
         detailed in the monthly project reports to monitor progress and
         track costs. However, the reports were so confusing and
         misleading that the contractor deemed them as "useless for
         evaluating performance or managing the project." NNSA
         recognized problems with the information in 2003 and
         acknowledged that it needed to work with the contractor to develop
         a more effective means to measure performance. Nonetheless,
         problems reported in 2003 were still evident in Fiscal Year (FY)
         2005. For example, performance of some design processes was
         being measured against an outdated cost plan. The contractor
         reported unfavorable cost and schedule variances for months, but
         explained that the variances were inaccurate and meaningless
         because performance was being compared against a two year old
         plan. Rather than discuss corrective actions it would take to reduce
         unfavorable variances, the contractor explained that variances
         would be eliminated when contract modifications added more
         funds to the contract.

         Further, cost ceilings and budgets were often established too late to
         be useful for controlling costs. For example, in January 2002,
         NNSA directed the contractor to make design changes which
         would allow the MOX Facility to process an additional feedstock.



Page 3                                                  Details of Finding
         In April 2002, the contractor submitted a change proposal and
         began incurring costs for the design change. The contractor
         completed the design for the alternate feedstock in December 2003
         at a cost of approximately $47 million. Despite this, in March
         2005, NNSA provided interim funding to the contractor for the still
         unapproved change proposal. NNSA imposed a $39 million cost
         ceiling, stating that the contractor was not authorized to "make
         expenditures or incur obligations exceeding $39 million" even
         though the contractor had already completed the work 15 months
         earlier at a cost of $47 million.

                           Limited Contract Administration

         NNSA did not provide adequate administration of the project to
         ensure that contractor performance problems were identified in a
         timely manner, nor that the problems were corrected before
         providing additional funds. For example, despite NNSA giving a
         positive review of the contractor's project management system in
         2000, a subsequent review of the same system in 2003 noted
         significant problems. Among the concerns noted were that
         performance reporting was based on outdated information and that
         variance analyses were non-specific. NNSA found that the
         contractor's performance reporting was so problem-ridden that it
         initiated 18 requests for corrective actions toward improving
         performance tracking so that it provided meaningful information.

         Further, after significant problems were identified, NNSA
         continued to increase contract funding without ensuring that
         problems were corrected. For example, in August 2003, the
         Defense Contract Audit Agency (DCAA) reported on its attempts
         to audit two contract change proposals totaling $300 million.
         DCAA found that the change proposals were so poorly supported
         that it suspended its audit. DCAA reported that it would not audit
         other change proposals until the contractor had implemented
         corrective actions. The contracting officer was so concerned about
         these estimating system deficiencies that he warned the contractor
         that failure to immediately implement corrective actions would
         negatively impact negotiations of future change proposals.
         Nonetheless, in the 20 months since the DCAA audit, NNSA
         increased the value of the contract by more than $340 million, even
         though a follow-up review of the estimating procedures had not
         been completed.

         To some extent, these problems were due to the fact that NNSA's
         staffing levels and skill sets were not sufficient to oversee a project
         of the size and complexity of the MOX Facility. Concerns



Page 4                                                   Details of Finding
                    regarding staffing were reported soon after the contract was
                    awarded in 1999, when an independent team reviewed the MOX
                    Facility contract. The team reported its concern that NNSA did not
                    have enough technical staff to oversee the project, and noted that
                    NNSA had only one person, the technical manager, assigned
                    exclusively to the MOX project. Given the complexity of the
                    contractor's organization, the array of work to be performed, and
                    the absence of contractor penalties for cost overruns or poor
                    performance, the team warned NNSA to exercise close control of
                    contract costs. The team recommended that, at a minimum, NNSA
                    should place at least one Federal employee at the contractor's site
                    to facilitate monitoring. NNSA did not place a Federal
                    representative at the site until FY 2003, 4 years after the report was
                    issued, because it believed that its "virtual" oversight office was
                    sufficient to manage the project.

                    However, in a 2004 programmatic review, NNSA reported that the
                    program was at risk because only a "handful" of Federal
                    employees were overseeing the MOX project. NNSA planned to
                    increase its staffing levels, but is awaiting resolution of issues
                    which had stalled the project's progress.

Impact on Project   Ultimately, of the nearly $1 billion appropriated for the MOX
Funds               Facility construction project, only about $206 million may be
                    available to actually support construction activities. As of July
                    2005, NNSA had already incurred costs of $453 million for design
                    activities, and estimated that it needed another $291 million to
                    complete the design. In addition, NNSA was accruing $13 million
                    each month to support the contractor's design contract.


RECOMMENDATIONS     We recommend that the Administrator for NNSA:

                        1. Incorporate performance incentives in future contract
                           negotiations;

                        2. Develop formal baselines for major projects as soon as
                           practicable, tailoring Critical Decision-2 requirements to
                           accommodate early development;

                        3. Ensure that information contained in monthly project
                           reports is timely, relevant, and accurate in its portrayal of
                           project status;

                        4. Include, and adhere to, contract cost ceilings to control
                           spending;



Page 5                                                              Details of Finding
                   5. Perform thorough, recurring, and timely reviews of
                      contract performance, and verify that problems are
                      corrected, including cost estimation problems identified in
                      DCAA audits; and,

                   6. Ensure that the number and skill set of the Federal staff
                      assigned to the MOX project is sufficient to oversee a
                      project of its size and complexity.


MANAGEMENT     Management agreed with our recommendations for improving
REACTION AND   project oversight and initiated corrective actions. For example,
AUDITOR        management identified deficiencies in contract management
COMMENTS       and directed the contractor to develop a corrective action plan.
               Additionally, management is reorganizing the program to
               streamline reporting and strengthen project management. We
               consider management's actions to improve project management
               responsive to our recommendations. While management agreed
               with our conclusion that the cost of the facility will significantly
               exceed the amount reported to Congress in 2002, it believed the
               statement may be misleading unless placed in proper context. To
               ensure a more credible cost comparison, management believed
               several factors should be considered in our report. Management's
               specific comments on these cost factors, followed by our responses
               are detailed below.

               Management Comment

               Management stated that comparing the current cost estimate,
               which reflects future year dollars, to that which appeared in the
               2002 report to Congress, which was expressed in 2001 dollars,
               overstates the cost difference. Using FY 2005 dollars,
               management estimated that the escalation of FY 2006 through FY
               2013 costs (the end of the facility's cold startup) accounted for
               approximately $360 million of the total project estimate.

               Auditor Response

               We recognize that comparing management's unescalated 2002
               estimate to its escalated 2005 estimate would affect the cost
               difference reported. However, cost escalation only represents
               approximately 14 percent of the increase in total project costs
               noted in this report. Further, we noted that since 2002,
               management had not updated any of its reports to Congress to
               include the cost of escalation for the project.




Page 6                                                               Comments
         Management Comment

         Management also stated that our inclusion of sunk costs--all
         project costs incurred to date--was misleading.

         Auditor Response

         In calculating the cost of the facility, we included all costs incurred
         under the design contract. We believe it was appropriate to include
         all costs incurred on the project to date since excluding these costs
         would understate the total project cost.

         Management Comment

         Management stated that the cost increase discussed in the report
         reflected the 2.5 year delay resulting from the Russian liability
         impasse.

         Auditor Response

         We agree, and acknowledged in the report, that the 2.5 year delay
         contributed to the cost increase because it stalled construction and
         prolonged the design phase. Nonetheless, a substantial amount of
         design work remains to be completed. Recent reports show the
         design is only 70 percent complete after six years. The fact that
         management has another 30 percent of design work to perform is
         one example of why costs have increased significantly.

         Management Comment

         In addition, management stated that the cost increase resulted in
         large part from circumstances that cannot be fairly attributed to
         project management. Management reported that cost increases
         were caused by the enhanced aqueous polishing capability.
         Management stated that the enhanced capability was added to
         handle impure plutonium as a result of the cancellation of the
         immobilization project. Management stated that, although this
         design change increased the cost of the MOX program, it
         represents considerable cost savings over the original plan to cover
         both a MOX and an immobilization program.

         Auditor Response

         We disagree with management's assertion that the enhanced
         aqueous polishing capability was a large contributor to the cost
         increase. According to the contractor's estimates, this added scope



Page 7                                                           Comments
         increased design costs by about $50 million, or approximately 2
         percent of the cost increase discussed in this report. Further, it
         should be noted, that NNSA had already decided to incorporate
         this enhancement when it reported to Congress in 2002.

         Management Comment

         Management stated that the cost increase also resulted from
         significant increases in the cost of construction materials and labor.

         Auditor Response

         The cost escalation, as noted above, incorporates increases in
         construction labor and materials, and would only account for a
         small portion of the cost increase.

         Management Comment

         Management stated that shifting the glove box and equipment
         design-build work from the construction phase to the design phase
         of the project resulted in increased costs, but allowed the MOX
         design team to be maintained during delays caused by the Russian
         liability issue. Management added that this would benefit the
         project by completing more of the overall design work prior to
         construction.

         Auditor Response

         As we acknowledged in our report, shifting the work from the
         construction phase to the design phase resulted in an increase in
         design costs. However, the overall project cost should not have
         been affected. Rather, we would expect that shifting the work
         from one phase of the project to another would result in an increase
         in design costs with a proportionate decrease in construction costs.
         Yet, both estimates have increased dramatically.




Page 8                                                          Comments
Appendix 1


OBJECTIVE     The objective of this audit was to determine if the MOX Facility is
              within budget as established in its 2002 report to Congress.


SCOPE         We conducted the audit from September 2004 to December 2005,
              at NNSA's Office of Fissile Materials Disposition in Washington,
              D.C., and the contractor's headquarters in Charlotte, North
              Carolina. The scope of the audit included MOX Facility design
              activities and costs from March 1999 through July 2005.


METHODOLOGY   To accomplish the audit objective, we:
                 •   Obtained and reviewed documentation for the MOX
                     project, including studies and cost estimates;

                 •   Reviewed the agreement between the United States and
                     Russia related to the disposition of weapons-grade
                     plutonium;

                 •   Assessed annual reports to Congress on project status;

                 •   Reviewed the base contract including all modifications to
                     the contract through May 2005;

                 •   Evaluated performance tracking and reporting mechanisms
                     used in the MOX project;

                 •   Researched Federal and Departmental regulations;

                 •   Analyzed external, independent project reviews;

                 •   Assessed internal controls and performance measures
                     established by the Government Performance and Results
                     Act of 1993; and,

                 •   Interviewed key NNSA and contractor personnel.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.




Page 9                                   Objective, Scope, and Methodology
Appendix 1 (continued)

                    We assessed compliance with the Government Performance and
                    Results Act of 1993 related to the MOX Facility and found that the
                    Department had established and reported on performance measures
                    associated with the project. Because our review was limited, it
                    would not necessarily have disclosed all internal control
                    deficiencies that may have existed at the time of our audit. We did
                    not conduct a reliability assessment of computer-processed data
                    because we did not rely on any computer processed information to
                    achieve our audit objective.

                    Management waived an exit conference on December 7, 2005.




Page 10                                       Objective, Scope, and Methodology
Appendix 2


                                 PRIOR AUDIT REPORTS


  •   NNSA's Pit Disassembly and Conversion Facility (IG-0688, May 2005). The
      construction of the Pit Disassembly and Conversion Facility (Conversion Facility) has
      been delayed, primarily due to foreign policy issues that are beyond the National Nuclear
      Security Administration's (NNSA) immediate control. The review confirmed that the
      schedule and cost parameters outlined in the Department's February 2002 report to
      Congress will not be met despite the importance of the project and the high priority that it
      has been assigned. NNSA's estimate was that the Conversion Facility would not be
      completed until 2013 – a four year delay – provided that the remaining foreign policy
      issues are resolved in the near term. In addition, NNSA's costs for the Conversion
      Facility will likely increase substantially beyond the life-cycle cost of $1.7 billion
      reported to Congress in 2002.

  •   Savannah River Site's Waste Solidification Building (IG-0618, September 2003). The
      Department's plan for the Plutonium Disposition Program was incomplete in that NNSA
      plans to transfer the waste treated at the Waste Solidification Building (WSB) to
      Environmental Management, but Environmental Management has no corresponding
      plans to receive, process, and dispose of the waste. In addition, neither NNSA nor
      Environmental Management has developed a cost or schedule baseline for the disposal of
      WSB-treated waste. A path forward does not exist because the Department has not
      established a policy for disposal of newly generated nuclear wastes from NNSA
      activities. Without an integrated and coordinated plan, the Department's accelerated
      cleanup goals may not be achieved and life-cycle costs for the Plutonium Disposition
      Program are likely to exceed initial estimates.

  •   The Department of Energy's Strategy for Disposal of Plutonium (ER-L-02-01, February
      2002). The Department's original approach for the disposal of plutonium – immobilizing
      8.4 metric tons of plutonium and converting 25.6 metric tons to fuel – was estimated to
      cost about $6.3 billion. In contrast, the Office of Inspector General estimated that
      converting all 34 metric tons to reactor fuel would cost about $4.6 billion and
      immobilizing all the material would cost about $4.3 billion. Department officials
      originally believed that converting all of the plutonium into fuel was not technically
      feasible and the Russian Federation would reject a proposal to immobilize the entire
      amount. However, the Department had since resolved the technical feasibility issues
      surrounding conversion. The audit disclosed that the Department could save at least $1.7
      billion by converting all of the surplus plutonium into fuel and avoiding the cost of
      plutonium immobilization.




Page 11                                                                    Prior Audit Reports
Appendix 3




Page 12      Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
                                                                    IG Report No. DOE/IG-0713

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
